CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amici Curiae of
the National Legal Foundation, et al., supporting granting the Petition in No. 201158, The North American Mission Board of the Southern Baptist Convention, Inc.
v. McRaney contains 1,429 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
March 25, 2021

/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

